CERTIFICATE OF
COMPLIANCE
I hereby certify that the accompanying Brief Of Amici Curiae Council For
Christian Colleges And Universities, The Association For Biblical Higher
Education, And Thirty-One Individual Religious Colleges And Universities
Supporting Petitioners in Fulton et al. v. Philadelphia et al. (No. 19-123)
complies with the word count limitations of Supreme Court Rule 33(g) in that it
contains 7,841 words, based on the word-count function of Microsoft Word –
Office 365, including footnotes and excluding material not required to be counted
by Rule 33(d).

/s/ Gene C. Schaerr
Gene C. Schaerr
June 3, 2020

